                                                                             H-IN-NPS-032-00-R


                 United States Department of the Interior

                                  Office of Inspector General
                                        Washington, D.C. 20240




                                                                             March 30, 2001

Memorandum

To:      Director, National Park Service

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors Report on National Park Service Financial Statements for
         Fiscal Year 2000 (No. 01-I-305)

We contracted with KPMG, LLP, an independent certified public accounting firm, to
audit the National Park Service=s (NPS) financial statements for fiscal year 2000. The
contract required that the audit be performed in accordance with the "Government
Auditing Standards," issued by the Comptroller General of the United States, and with
Office of Management and Budget Bulletin 01-02, "Audit Requirements for Federal
Financial Statements."

To ensure the quality of the audit work performed, we monitored the progress of the audit
at key points and reviewed KPMG=s report and related working papers to ensure
compliance with applicable standards. Our review, as differentiated from an audit in
accordance with generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, opinions on the NPS=s financial statements
or on the conclusion about the effectiveness of internal controls or conclusions on
compliance with laws and regulations. KPMG is responsible for the auditors report (see
Attachment 1) and for the conclusions expressed in the report. However, our review
showed that KPMG complied, in all material respects, with applicable standards and
mandated requirements.

In its audit report dated January 12, 2001 (Attachment 1), KPMG issued an unqualified
opinion on the NPS&s financial statements. However, KPMG found two reportable
material weaknesses in internal controls and six reportable conditions related to internal
controls and financial operations. With regard to compliance with laws and regulations,
KPMG found that the NPS did not fully comply with Federal Financial Management
Improvement Act (FFMIA) requirements. Specifically, the NPS=s financial management
systems did not substantially comply with the U.S. Government Standard General Ledger
at the transaction level and applicable Federal accounting standards. The report made
30 recommendations to correct the identified weaknesses.
Auditee Comments and Office of Inspector General Evaluation

In the February 28, 2001 response (Attachment 2) to the draft report, the NPS generally
concurred with 27 recommendations and did not concur with 3 recommendations. As a
result of the response, two recommendations (Nos. G.1 and G.3) were modified, and NPS
concurred with the revised recommendations. Overall, we consider 1 recommendation
resolved and implemented, 28 recommendations resolved but not implemented, and
1 recommendation unresolved. Accordingly, the unimplemented recommendations will
be referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation, and the unresolved recommendation will be referred for resolution (see
Attachment 3).

The NPS also did not concur with some of the report’s conclusions, including a finding
that NPS was not in compliance with the FFMIA. Based on the NPS’s response, the
report was modified as deemed appropriate. However, we believe that the report’s
finding regarding noncompliance with the FFMIA is stated accurately, that is, that the
NPS was not complying with the U.S. Government Standard General Ledger at the
transaction level and with applicable Federal accounting standards. Examples cited in the
report such as donations being recorded as appropriations used, as well as other posting
model problems, resulted in adjustments of $288 million being made to the financial
statements in order for them to be fairly stated. We believe that the need for these
adjustments indicates that the NPS was not substantially complying with the U.S.
Government Standard General Ledger at the transaction level, as required by the FFMIA.

Section 5(a) of the Inspector General Act (5 U.S.C app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office
of Inspector General provides audit reports to the Congress.

This report is intended for the information of management of the NPS and the Office of
Management and Budget and the Congress. However, this report is a matter of public
record, and its distribution is not limited.


Attachments (3)

cc:    Chief Financial Officer, National Park Service
